<html>
<title> - NO TAXPAYER FUNDING FOR ABORTION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  NO TAXPAYER FUNDING FOR ABORTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION 
                           AND CIVIL JUSTICE

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                 H.R. 7

                               __________

                            JANUARY 9, 2014

                               __________

                           Serial No. 113-57

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
86-208                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              [Vacant]
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

           Subcommittee on the Constitution and Civil Justice

                    TRENT FRANKS, Arizona, Chairman

                    JIM JORDAN, Ohio, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa                     ROBERT C. ``BOBBY'' SCOTT, 
LOUIE GOHMERT, Texas                 Virginia
RON DeSANTIS, Florida                STEVE COHEN, Tennessee
JASON T. SMITH, Missouri             TED DEUTCH, Florida

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                            JANUARY 9, 2014

                                                                   Page

                                THE BILL

H.R. 7, the ``No Taxpayer Funding for Abortion Act''.............     3

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution and Civil Justice.................................    15
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciry.    19
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Member, Subcommittee on the Constitution and 
  Civil Justice..................................................    20

                               WITNESSES

Helen M. Alvare, Professor of Law, George Mason University School 
  of Law
  Oral Testimony.................................................    27
  Prepared Statement.............................................    30
Susan Franklin Wood, Associate Professor of Health Policy, 
  Director, Jacobs Institute of Women's Health, School of Public 
  Health and Health Services, George Washington University
  Oral Testimony.................................................    35
  Prepared Statement.............................................    38
Richard M. Doerflinger, Associate Director, Secretariat of Pro-
  Life Activities, United States Conference of Catholic Bishops
  Oral Testimony.................................................    42
  Prepared Statement.............................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution and Civil 
  Justice
    Memo from the National Women's Law Center....................    17
    Prepared Statement of the Honorable Eleanor Holmes Norton, a 
      Representative in Congress from the District Columbia......    25

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, Ranking 
  Member, Committee on the Judiciary, and Member, Subcommittee on 
  the Constitution and Civil Justice.............................    72
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution and Civil 
  Justice
    Prepared Statement of the Honorable Jerrold Nadler, a 
      Representative in Congress from the State of New York, and 
      Ranking Member, Subcommittee on the Constitution and Civil 
      Justice....................................................    74
    Response to Question for the Record from Susan Franklin Wood, 
      Associate Professor of Health Policy, Director, Jacobs 
      Institute of Women's Health, School of Public Health and 
      Health Services, George Washington University..............    85
    Prepared Statement of Sara Rosenbaum, Lara Cartwright-Smith, 
      Ross Margulies, Susan Wood, and D. Richard Mauery, School 
      of Public Health & Health Services, Department of Health 
      Policy, the George Washington University Medical Center....    86
    Coalition Letter.............................................   100
    Letter from Jon O'Brien, President, Catholics for Choice.....   103
    Letter from Vincent C. Gray, Mayor, Washington, D.C..........   106
    Prepared Statement of Laura W. Murphy, Director, and Sarah 
      Lipton-Lubet, Policy Counsel, ACLU Washington Legislative 
      Office, the American Civil Liberties Union (ACLU)..........   107
    Prepared Statement of the American Congress of Obstetricians 
      and Gynecologists (ACOG)...................................   113
    Prepared Statement of the Center for Reproductive Rights.....   114
    Prepared Statement of Vicki Saporta, President and CEO, 
      National Abortion Federal (NAF)............................   120
    Letter from Susan A. Cohen, Acting Vice President for Public 
      Policy, the Guttmacher Institute...........................   124
    Prepared Statement of NARAL Pro-Choice American Foundation...   133
    Prepared Statement of Nancy Kaufman, Chief Executive Officer, 
      the National Council of Jewish Women (NCJW)................   142
    Letter from Emily Spitzer, Executive Director, the National 
      Health Law Program (NHeLP).................................   145
    Prepared Statement of the National Asian Pacific American 
      Women's Forum (NAPAWF).....................................   148
    Prepared Statement of Debra Ness, President, and Andrea 
      Friedman, Director of Reproductive Health Programs, the 
      National Partnership for Women & Families..................   151
    Prepared Statement of the Planned Parenthood Federation of 
      America....................................................   155
    Prepared Statement of Nancy Stanwood, MD, MPH, Board Chair, 
      Physicians for Reproductive Health.........................   158
    Letter from Frank Knapp, Jr., President & CEO, South Carolina 
      Small Business Chamber of Commerce.........................   161
    Prepared Statement of Judy Waxman, Vice President for Health 
      and Reproductive Rights, the National Women's Law Center 
      (NWLC).....................................................   163


                  NO TAXPAYER FUNDING FOR ABORTION ACT

                              ----------                              


                       THURSDAY, JANUARY 9, 2014

                        House of Representatives

                   Subcommittee on the Constitution 
                           and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Trent 
Franks (Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Jordan, Chabot, Forbes, 
King, Gohmert, DeSantis, Smith, Nadler, Scott, Cohen, and 
Deutch.
    Staff Present: (Majority) Paul Taylor, Subcommittee Chief 
Counsel; Tricia White, Clerk; (Minority) Heather Sawyer, 
Counsel; and Veronica Eligan, Professional Staff Member.
    Mr. Franks. Committee will come to order. Want to welcome 
everyone to the Committee. Happy new year to you all. Welcome 
to the panelists, especially. And welcome back to my colleagues 
on both sides of this podium.
    For well over 30 years, Congress has prevented the Federal 
funding of abortions through a patchwork of amendments that are 
added to various appropriations bills during each budget cycle 
prohibiting the Federal funding of abortions through their 
funded programs. Now is the time to pass one piece of 
legislation that puts Members on record supporting a 
prohibition on any Federal funding of abortion no matter where 
in the Federal system that funding might occur.
    In poll after poll, the American people have overwhelmingly 
expressed their opposition to the Federal funding of abortions. 
H.R. 7 will ensure that American taxpayers are not involved in 
funding the destruction of innocent human life through abortion 
on demand. The No Taxpayer Funding for Abortion Act will 
establish a government-wide statutory prohibition on abortion 
funding by making permanent the various policies Congress has 
implemented on a case-by-case basis, including: The Hyde 
Amendment, which prohibits funding for elective abortion 
coverage through any program funded through the annual Labor, 
Health and Human Services Appropriations Act; the Helms 
Amendment, which prohibits funding for abortions as a method of 
family planning overseas; the Smith Amendment, which prohibits 
funding for elective abortion coverage for Federal employees; 
the Dornan Amendment, which prohibits the use of 
Congressionally appropriated funds for abortion in the District 
of Columbia, and other policies such as the restrictions on 
elective abortion funding through the Peace Corps and Federal 
prisons.
    Now, absolutely nothing in the Democrats' unpopular health 
care law prevents the Federal funding of abortions under the 
program it creates. Representatives Joe Pitts and former 
Representative Bart Stupak offered an amendment to the bill 
during the 111th Congress that would have prohibited government 
funding of abortion, had it been included in the final Health 
Care Reform Act. But that provision was stripped out of the 
Senate bill the President signed into law.
    In the last-minute effort to work a face-saving political 
deal, the President said he would sign an executive order that 
claimed to limit Federal funding of abortions in some way. Then 
in an interview with the Chicago Tribune editorial board, 
former White House chief of staff Rahm Emanuel emphasized that 
the executive order signed by President Obama does not carry 
the force of law, and as such, was approved by the former House 
Speaker Nancy Pelosi and others who oppose a ban on taxpayer 
funding of abortion. Mr. Emanuel said, I quote, ``Came up with 
the idea for an executive order to allow the Stupak Amendment 
not to exist in law.''
    There you have it. In the words of the President's chief of 
staff at the time, ``the Obamacare law provides for the Federal 
taxpayer funding of abortions.'' Any Member who opposes that 
policy must support H.R. 7, which would at last put back into 
law the principle of the bipartisan Hyde Amendment and place a 
Federal Government-wide ban on the Federal funding of the 
destruction of innocent human life.
    Now, I am fully aware of the controversy surrounding the 
underlying issues here. And throughout history, there has often 
been great intensity surrounding the debates over protecting 
the innocent lives of those who, through no fault of their own, 
find themselves obscured in the shadows of humanity. It 
encourages me greatly that in nearly all of those cases, the 
collective conscience was finally moved in favor of the 
victims. The same thing is beginning to happen in this debate 
related to innocent, unborn children. We are beginning to ask 
ourselves the real question: Does abortion take the life of a 
child? And we are beginning to finally able to realize as a 
human family that it does.
    Ultrasound technology now demonstrates to all reasonable 
observers both the humanity of the victim and the inhumanity of 
what is being done to them. And we are beginning to realize as 
Americans that brutally taking the lives of the innocent unborn 
does not liberate anyone, and that 50 million dead children is 
enough. I look forward to hearing from the witnesses.
    And I now recognize the Ranking Member of the Subcommittee, 
Mr. Nadler, for his opening statement.
    [The bill, H.R. 7, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Nadler. Thank you, Mr. Chairman. Today's hearing 
concerns what may be the most difficult and divisive issue we 
will have the opportunity to consider: A woman's right to make 
decisions about her own body. The right of a woman to decide 
whether to become pregnant and whether to continue or terminate 
her pregnancy is protected by the Constitution. Whether or not 
you think that is a good idea or a fair reading of the 
Constitution, it remains the law of the land. The Supreme Court 
has also determined that neither Congress nor a State may place 
an undue burden on that right.
    Now comes H.R. 7, the ``No Taxpayer Funding for Abortion 
Act,'' which is misleading and misnamed because the bill seeks 
to burden all women's health care choices in a variety of ways 
that have in nothing to do with Federal funds. Contrary to the 
assertions of its supporters, H.R. 7 is not the mere 
codification of existing law. This bill seeks to extend current 
funding restrictions in the Hyde Amendment that are limited in 
time and scope and to apply them to all Federal laws without 
any effort to determine how such a sweeping and permanent 
expansion would impact American women and their families.
    If this were all, that would still be enough reason to 
oppose it. But H.R. 7 actually goes much further. This bill, 
for the first time ever, denies tax deductions and credits for 
women who use their own money to pay for an abortion or to 
purchase insurance that covers abortion, and in so doing, 
increases taxes for women and families with respect to one of 
the most personal, private decisions that they may face. So in 
effect, it imposes a tax increase on women who choose to use 
their own money for abortions, under certain circumstances. In 
particular,H.R. 7 denies the itemized tax deduction that 
otherwise is available for medical expenses if the expense is 
an abortion and treats as taxable income any distribution from 
a flexible spending account or health savings account that is 
used to pay for abortion expenses.
    H.R. 7 denies small employers the ability to use tax 
credits to provide health coverage if that coverage includes 
abortion. The bill also denies income-eligible women the use of 
premium tax credits available under the Affordable Care Act if 
selected insurance coverage includes abortion. In first 
opposing and then voting to repeal the Affordable Care Act--not 
once, not twice, but I think we are up to 47 times now--my 
Republican colleagues have complained that government should 
not meddle in the private insurance market or in private health 
care choices. But this legislation obviously is designed to do 
just that.
    It seems that many Republicans believe in freedom, provided 
no one uses that freedom in a way that they do not approve of. 
That is a strange understanding of freedom. Even more stunning, 
this bill increases taxes on families, businesses, and the 
self-employed if they spend their own money--let me repeat 
that, their own money, not Federal money--on abortion coverage 
or services. As we know, the power to tax is the power to 
destroy. And here the taxing power is being used to destroy the 
right of every woman to make private health care decisions free 
from government interference. This tax increase is being 
championed by Republicans, almost all of whom have taken a 
pledge not to raise taxes on individuals or businesses, except 
here.
    I am equally surprised to find out that my Republican 
colleagues think that a tax exemption or a tax credit is a form 
of government funding. Should we now consider every tax 
exemption or credit as a form of government funding for the 
recipient? I am sure there will be many businesses, charities, 
and religious denominations that will be alarmed to discover 
this.
    I also join many other Americans in being absolutely 
horrified that the majority of this Committee seems to not know 
what rape is. When this bill was introduced in the last 
Congress, its sponsors sought to limit the Hyde Amendment rape 
exception to instances of ``forcible'' rape. Many in Congress 
and across America were outraged. According to the bill's 
champions, date rape drugs, and sex with minors were not really 
rape.
    In the face of public outcry, the majority removed the term 
``forcible'' from the bill before this Committee marked it up 
in the last Congress. But let no one misunderstand or be fooled 
by that change. My colleagues still seek to narrow the rape 
exception, as they made clear in the Committee report 
accompanying H.R. 3 in the last Congress, where they explained, 
``Reverting to the original Hyde Amendment language should not 
change longstanding policy. H.R. 3 with the Hyde Amendment 
language would still appropriately not allow the Federal 
Government to subsidize abortions in cases of statutory rape. 
The Hyde Amendment has not been construed to permit Federal 
funding of abortion based solely on the youth of the mother, 
nor has the Federal funding of abortions in such cases ever 
been the practice.''
    The majority's assertion, as explained in a memo from the 
National Women's Law Center is false. In fact, a 1978 
regulation clarified that funding is required for all cases of 
rape, whether statutory or forcible. Nothing in the language of 
the Hyde Amendment qualifies the term ``rape,'' and Congress 
rejected a proposal to limit the amendments to cases of 
forcible rape. It rejected it then, but this Committee would 
seek to change it now.
    I ask unanimous consent that the National Women's Law 
Center memo be entered into the record.
    Mr. Franks. Without objection.
    Mr. Nadler. Thank you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Nadler. In their Committee report, my colleagues 
displayed their true intent with regard to the exception for 
rape, which is to remove Federal assistance to children and 
teenagers who are the victims of predators. They have not been 
as transparent about the overall intent behind this bill, but 
it is nonetheless clear: it is to end insurance coverage for 
medically indicated abortions for all women, whether or not 
they obtain their insurance on an exchange, and even if they 
use their own money to purchase the insurance.
    My colleagues in the majority believe that if you like your 
insurance coverage you should get to keep it, unless it is for 
choices that they don't like. Then they have no qualms about 
taking your coverage away. That is the intended and likely 
result of this bill. Currently, the vast majority of insurance 
products cover abortion services. But as Professor Sara 
Rosenbaum of GWU's School of Public Health testified in the 
last Congress, insurance companies will respond to the tax 
penalties this bill imposes by dropping coverage for abortions 
from all of their plans. This will have a significant effect on 
all women, not just lower-income women, who have long felt the 
brunt of Federal restrictions on their health care choices.
    My colleagues blithely assert that coverage will be 
available if in no other way through supplemental insurance 
policies. But, as Professor Wood, the witness invited by the 
minority, can explain, there is no evidence that such product 
lines are being developed. H.R. 7 is not codification of 
existing law, nor is it just another attempt to enact the 
approach taken in the Stupak-Pitts Amendment to the House-
passed Affordable Care Act. H.R. 7 is a radical departure from 
current tax treatment of medical expenses and insurance 
coverage. And it is neither justifiable nor necessary to 
prevent Federal funding of abortion.
    I yield back the balance of my time, and I look forward to 
hearing from our witnesses today.
    Mr. Franks. I thank the gentleman. And now I yield to the 
Chairman of the Committee, Mr. Goodlatte from Virginia, for an 
opening statement.
    Mr. Goodlatte. Thank you, Mr. Chairman, for holding this 
hearing. However stark Americans' differences of opinion can be 
on the matter of abortion generally, there has been long 
bipartisan agreement that Federal taxpayer funds should not be 
used to destroy innocent life. The Hyde Amendment, named for 
its chief sponsor, former House Judiciary Committee Chairman 
Henry Hyde, has prohibited the Federal funding of abortion 
since 1976, when it passed a House and Senate that was composed 
overwhelmingly of Democratic Members. It has been renewed each 
appropriations cycle with few changes over the last 38 years, 
supported by Congresses controlled by both parties and 
presidents from both parties.
    It is probably the most bipartisan, pro-life proposal 
sustained over a longer period of time than any other. As such, 
it warrants codification in the United States Code. H.R. 7, the 
No Taxpayer Funding for Abortion Act, would do just that by 
codifying the two core principles of the Hyde Amendment 
throughout the operations of the Federal Government, namely, a 
ban on Federal funding for abortions and a ban on the use of 
Federal funds for health benefits coverage that includes 
coverage of abortion.
    During the time the Hyde Amendment has been in place, 
probably millions and millions of innocent children and their 
mothers have been spared the horrors of abortion. The 
Congressional Budget Office has estimated that the Hyde 
Amendment has led to as many as 675,000 fewer abortions each 
year. Let that sink in for a few precious moments. The policy 
we are discussing today has likely given America the gift of 
millions more children and consequently millions more mothers 
and millions more fathers, millions more lifetimes, and 
trillions more loving gestures and other human gifts in all 
their diverse forms. What a stunningly wondrous legacy.
    Thank you, Chairman Franks, for convening this hearing and 
thanks also to representative Chris Smith for sponsoring this 
vital legislation. I look forward to hearing from our witnesses 
today. However, I wanted to say just one more thing, Mr. 
Chairman. The gentleman from New York made reference to it 
being a radical departure from insurance policies. But the real 
radical departure here is the fact that now we will have, for 
the first time, Federal subsidies of health insurance policies 
in America. So that is the radical departure that we are 
facing, and that is why legislation is needed to address the 
fact that this will be a major substantial breach in the Hyde 
Amendment, the policy of the United States of America since 
1976.
    And I thank you and yield back.
    Mr. Franks. And I thank the gentleman.
    Are there any other opening statements?
    Then I would now yield to Mr. Chabot, the gentleman from 
Ohio, for an opening statement.
    Mr. Nadler. Mr. Chairman.
    Mr. Franks. When he finishes his opening statement, we will 
consider unanimous consent.
    Mr. Nadler. I'm sorry.
    Mr. Chabot. Thank you, Mr. Chairman. And thank you for your 
leadership on this issue for many years now.
    Protection of the most vulnerable among us, the unborn, is 
one of the most important and most solemn duties that we, I 
believe, as elected officials, undertake. Since Roe versus Wade 
was decided almost 41 years ago, this Subcommittee in 
particular has been the focal point in the effort to curb 
abortions nationally. Most notably, it was this Subcommittee 
that first considered and approved the Partial Birth Abortion 
Ban Act of 2003, which I had the honor to introduce, which 
later passed both Houses of Congress, was signed into the law 
by President Bush, and upheld as constitutional by the United 
States Supreme Court. But as thousands of Americans prepare to 
head to Washington in about 2 weeks for the annual March for 
Life in remembrance of the approximately 50 million American 
lives lost to abortions since Roe was decided back on January 
22, 1973, much more remains to be done. It is appropriate then 
that this Subcommittee again take the lead on legislation that 
will further limit the number of abortions performed in this 
country, especially with taxpayer dollars.
    The No Taxpayer Funding for Abortion Act introduced by our 
colleague, Chris Smith of New Jersey, would prevent any Federal 
funding of abortion, whether channeled through insurance plans 
or paid directly to abortion providers. The bill reaches back 
through history and seeks to make the Hyde Amendment, as has 
been mentioned a number of times already, and the Hyde/Weldon 
Conscience Protection clause and several other pro-life 
amendments permanent under Federal law. I would note that this 
bill is a legislative effort to actually implement Executive 
Order 13535 that President Obama issued back on March 24 of 
2010. And that order stated, in part, ``It is necessary to 
establish an adequate enforcement mechanism to ensure that 
Federal funds are not used for abortion services, consistent 
with the longstanding Federal statutory restriction that is 
commonly known as the Hyde Amendment.''
    Mr. Chairman, the No Taxpayer Funding for Abortion Act 
provides that enforcement mechanism and it has overwhelming 
public support. 2011 CNN poll found 61 percent of the 
respondents opposed public funding for abortion. And a 2010 
Quinnipiac poll showed 67 percent of the respondents opposed 
Federal funding of abortion.
    For these reasons, I would urge my colleagues to support 
this legislation. I thank you for holding this hearing today. 
Yield back.
    Mr. Franks. And I thank the gentleman.
    And I understand--go ahead.
    Mr. Nadler. Mr. Chairman, may I be recognized for a 
unanimous consent request?
    Mr. Franks. Without objection.
    Mr. Nadler. Thank you, Mr. Chairman. This Subcommittee 
received a request from the delegate from the District of 
Columbia, Eleanor Holmes Norton, to be allowed to testify on 
this bill. I understand that she has been told that her request 
would not be accommodated. I ask unanimous consent that our 
colleague be given 5 minutes to address the Subcommittee on the 
matter that uniquely affects her constituents and only her 
constituents. That has been the common practice in the House.
    Mr. Franks. I would have to have raise objection.
    Mr. Nadler. I regret that the Chairman objects. I would 
hope that he would reconsider what is normally a fairly 
pedestrian request. This bill contains a provision that singles 
out the District of Columbia for additional restrictions on how 
it may spend its own local tax funds, not Federal funds. This 
is the equivalent of barring a State from making its own 
choices about how it wants to spend its own State funds. No 
Member would tolerate Congress telling their State or their 
town how to spend their own tax dollars, yet this bill would do 
just that to the citizens of our Nation's capital.
    The exclusion of Delegate Norton, who is relegated to 
sitting in the audience today--and I want to welcome her and 
apologize for the manner in which she is being treated--is yet 
another example of an abuse of power. As I have said in the 
past, never in more than 20 years as a Member of this body have 
I seen a colleague treated as contemptuously as our colleague 
from the District of Columbia is being treated today. The 
gentlewoman from the District of Columbia is a Member of this 
body, and the people she represents are taxpaying American 
citizens. And yet this Committee can't be bothered to take 5 
minutes to hear our colleague, who will not even be permitted 
to vote on the bill. The District of Columbia is not a colony, 
it is part of the United States, and its people are entitled to 
be treated with the same respect that we demand for the people 
we represent.
    Now, I know that it will be said by the Chairman, because 
he has said it to me, and there is no secret, that while the 
Democrats get one witness and if we want Eleanor--or the 
delegate from the District of Columbia to be our witness--we 
are free to do that. That is true. But that gives us a Hobson's 
choice. Because Eleanor's testimony would be only about the 
specifics of how this affects her district in a way unique to 
that district. And that would leave us no witness on the basic, 
broad import of the bill. On the other hand, if we have a 
witness on the basic, broad import of the bill, we don't have 
the opportunity, or Eleanor doesn't have the opportunity, to 
present the specifics of her district.
    It is a common courtesy. There is no rule in the House that 
prevents this. And again, I ask that this be reconsidered. And 
that the common practice that has normally been common practice 
in this House that when a matter specifically affects a 
Member's district, she or he is given the opportunity to 
testify, be implemented here.
    Mr. Franks. I would join the gentleman in recognizing and 
welcoming Mrs. Norton, Ms. Norton to the audience today. And 
would remind the gentleman that it does indeed remain true that 
the minority was entirely free to invite Ms. Norton as their 
witness. In fact, I extended that invitation personally both to 
the Chairman and to the Subcommittee Chairman, Mr. Nadler. But 
they declined. Now, since the bill that is the subject of the 
hearing today only mentions the District of Columbia to make 
clear that funds appropriated by Congress for the District of 
Columbia shall be, of course, considered Federal funds, just 
like all other Federal funds, there was no reason for the 
majority to call Ms. Norton as a witness. Ms. Norton is, of 
course, welcome to submit any materials she would like for the 
hearing record, which will be made part of the record without 
objection.
    Mr. Nadler. Mr. Chairman. Mr. Chairman. With respect--what 
you just said is not completely accurate. This bill applies in 
a way that it applies nowhere else, to funds raised locally, by 
local tax funds in the District of Columbia. It does not apply 
to local tax funds raised in New Jersey, by the State of New 
Jersey, or anywhere else. Now, it does that by sleight of hand. 
It says, ``The term 'Federal government' includes the 
government of the District of Columbia,' for the purposes of 
this bill. For most purposes, the term 'Federal Government' 
never includes the District of Columbia.'' So this bill has the 
unique effect of--for the District of Columbia only--telling 
them how they may use local funds raised by local sales taxes 
or income taxes or property tax in a way that is not done 
anywhere else. And, therefore, it is a unique application. And 
the common courtesy of the House demands that Ms. Norton be 
able to testify--not as our one witness but as a specific 
witness with respect to the application to her district. A 
courtesy that I have seen granted many, many times in this 
House. And in this Committee, for that matter.
    Mr. Franks. The gentleman's objection is duly noted. And 
would just remind the gentleman that the District of Columbia 
is the seat of this government, according to the Constitution, 
and not a State. And consequently we will proceed.
    Mr. Nadler. Mr. Chairman.
    Mr. Franks. Now let me introduce our witnesses.
    Mr. Nadler. Mr. Chairman, Mr. Chairman, Mr. Chairman. Mr. 
Chairman, you stated to me that the rules of the House are the 
rules of the Committee do not permit the seating of Ms. Norton 
as a witness other than our one witness. Could you please point 
out to me the rules of the House, the rules of the Committee 
that so indicate?
    Mr. Goodlatte. Would the gentleman yield?
    Mr. Franks. Yes.
    Mr. Nadler. Would I yield?
    Mr. Goodlatte. Mr. Chairman, I appreciate the 
circumstances, and I, too, welcome Ms. Norton's presence here. 
But, last year, at the beginning of this Congress, I announced 
to the full Committee our policy regarding the participation of 
Members who are not a Member of the Judiciary Committee or its 
Subcommittees, and here is what I announced.
    ``I want to take the opportunity of this full Committee 
gathering to make Members aware of our new policy regarding 
participation in Subcommittee hearings. At the beginning of the 
Congress, I was asked whether Members who are not a Member of a 
Subcommittee would be allowed to participate in Subcommittee 
hearings. After giving it some thought, I have come up with 
what I think to be a reasonable solution that will allow our 
Members some level of participation without overly burdening 
the Subcommittees. A Member of the Judiciary Committee who is 
not a Member of a Subcommittee may attend a hearing and sit on 
the dais. That Member may also ask questions of the witnesses. 
But only if yielded time by an actual Member of the 
Subcommittee who is present at the hearing. I would ask that 
Members who intend to participate in this fashion let the 
majority staff know as far in advance of the hearing as 
possible so that we may prepare accordingly. It will remain the 
policy of the Committee that we do not allow Members to 
participate in our hearings if they are not Members of the 
Judiciary Committee.'' Thank you, Mr. Chairman.
    Mr. Nadler. Would the gentleman yield?
    Mr. Franks. Gentleman from New Jersey has the time. There 
is really no time. At this point, I think----
    Mr. Nadler. Gentleman from New Jersey?
    Mr. Franks. I'm sorry. Wherever you are from. New York.
    Mr. Goodlatte. You mentioned New Jersey a couple times in 
your statements.
    Mr. Franks. I apologize to people in both the States.
    Mr. Nadler. Mr. Chairman, I would like to point out that 
that policy statement, A, is not a rule, but, B, refers to 
participation as a Member of the Committee or Subcommittee in 
asking questions. It does not refer to testifying before the 
Committee. And again it has been the practice in the House that 
we afford the courtesy--we would have been well finished with 
this by now if you had done that, by the way--to a Member whose 
district is uniquely affected to testify. We have had panels of 
only Members. There is nothing that says you can't do this if 
you have the common courtesy to do it.
    Mr. Franks. I would just suggest to you to remind the 
gentleman, the House rules provide for the participation in 
hearings only by Members of that Committee or Subcommittee. 
House Rule 11 states, ``Each Committee shall apply the 5-minute 
rule during the questioning of witnesses in a hearing until 
such time as each Member of the Committee who so desires has 
had an opportunity to question each witness.'' Now I feel like 
I have----
    Mr. Nadler. Mr. Chairman, again, that is questions, has 
nothing to do with testifying.
    Mr. Franks. A UC is required in order to allow non-
Judiciary Member to participate.
    Mr. Nadler. No, I'm not talking about participating.
    Mr. Franks. I have given the gentleman ample time to state 
his point and respectfully----
    Mr. Nadler. You are misstating my point. I am not talking 
about participating, I am not talking about asking questions. I 
am talking about testifying. It is an entirely different 
matter.
    Mr. Goodlatte. Will the gentleman yield?
    Mr. Franks. Please.
    Mr. Goodlatte. I want to reiterate the Committee's 
position, and not just in this Congress but in previous 
Congresses as well is that non-members of the Committee do not 
sit on the dais. That was the gentleman's subsequent request. 
His original request was that she be given 5 minutes to 
testify.
    Mr. Nadler. That is my request.
    Mr. Goodlatte. That requires unanimous consent. That was 
rejected by the Chairman. And the Chairman made it very plain, 
and I will again, that she is very welcome to submit any 
materials that she would like to for the hearing record, which 
will be made part of the record without objection.
    Mr. Franks. Thank you. And now I would like to introduce--
--
    Mr. Nadler. Can I ask unanimous consent in view of the 
rudeness----
    Mr. Franks. Gentleman is not recognized.
    Mr. Nadler [continuing]. Ask unanimous consent to----
    Mr. Franks. Unanimous consent.
    Mr. Nadler. In view of the rudeness of the Committee, I ask 
unanimous consent to place the gentlewoman's written statement 
into the record. I assume there will be no objection to that.
    Mr. Franks. Without objection.
    Mr. Nadler. Thank you.
    [The prepared statement of Ms. Norton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Franks. And I will now introduce our witnesses.
    Helen Alvare is professor of law at George Mason University 
School of Law. Professor Alvare teaches and writes scholarship 
and public essays in leading newspapers concerning law and 
policy affecting women, children, and the family. She is co-
founder of the grassroots organization, Women Speak for 
Themselves, and a regular consultant to the official council 
advising Pope Francis on matters considering women in the 
church and in the world. We welcome you, Mrs. Alvare.
    Ms. Alvare. Thank you.
    Mr. Franks. Susan Wood is an associate professor of health 
policy at the George Washington University School of Public 
Health and Health Services, and the Director of the Jacobs 
Institute of Women's Health. Prior to joining George Washington 
University, Professor Wood served as Assistant Commissioner for 
Women's Health and Director of the Office of Women's Health at 
the Federal Drug Administration. Welcome, Ms. Wood.
    Richard Doerflinger is the Associate Director of the 
Secretariat of Pro-Life Activities, United States Conference of 
Catholic Bishops, where he has worked for 33 years. He is also 
Adjunct Fellow in Bioethics and Public Policy at the National 
Catholic Bioethics Center in Philadelphia. We welcome you, Mr. 
Doerflinger.
    Each of the witnesses' written statements will be entered 
into the record in its entirety. And I ask that each witness 
summarize his or her testimony in 5 minutes or less. To help 
you stay within that time, there is a timing light in front of 
you. The light will switch from green to yellow, indicating 
that you have 1 minute to conclude your testimony. When of the 
light turns red, it indicates that the witness's 5 minutes have 
expired.
    Before I recognize the witnesses, it is the tradition of 
the Committee that they be sworn. So if you will please stand 
to be sworn.
    [Witnesses sworn.]
    Mr. Franks. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    And so I would now recognize our first witness, Ms. Alvare. 
And if you would please turn your microphone on before 
speaking. Yes, ma'am.

 TESTIMONY OF HELEN M. ALVARE, PROFESSOR OF LAW, GEORGE MASON 
                    UNIVERSITY SCHOOL OF LAW

    Ms. Alvare. Thank you very much. And I would like to thank 
the Committee for holding this hearing, which even 40 years 
after Roe versus Wade, is a sign of the power of a human rights 
dream that refuses to die. No matter how much abortion is 
legal, Americans, including American women especially, have 
never and will never make their peace with it. In my remarks 
today, I am going to address two points: First that neither 
American law makers, or citizens, especially women, understand 
abortion as a public good. And second, that abortion is not 
part of any women's health agenda, even out of the lips of our 
own Federal Government in its own statements.
    In my first point, it's understood by lawmakers and 
citizens that abortion is different from anything else the 
Federal Government might fund. It's unlike the use of the 
Federal budget, which is for things that support and promote 
human life versus death, versus insecurity and want. Our 
Supreme Court has said abortion is not like any other medical 
procedure. Perhaps this is because, as Justice Stevens and 
Ginsburg have acknowledged, some of these procedures are 
``brutal or gruesome,'' or as Justice Kennedy in a majority has 
acknowledged, abortion kills. Finally, President Obama has 
opined that he wishes abortion to be rare and it's a tragic 
matter. The State legislatures recognize the same thing and 
have passed a record number of laws restricting abortion in the 
last 2 years.
    Even the most strenuous supporters of legal abortion, 
Planned Parenthood, has acknowledged that there is, in their 
words, a baby growing inside a pregnant woman such that 
abortion ends her life. How disturbing, then, it is that 
supporters of abortion would continue to urge its funding while 
acknowledging that it's killing. And the reason they claim is 
women's health and rights, which is the 800-pound gorilla in 
the room every time abortion is debated, including today, so 
let me turn to that.
    It's no longer contestable that for decades--and 
particularly good RAND Corporation study I've cited shows 
this--women have been more pro-life than men, lesser educated, 
are more pro-life than the privileged, and the poor are more 
pro-life than the wealthy. This translates also to the matter 
of abortion funding, where we have the particularly disturbing 
data point that the well-off support abortion funding for the 
poor more than the poor support it for themselves. 
Investigations of women's voting patterns turn up the same 
information. Women don't vote because of abortion or in favor 
of abortion funding.
    Finally, when you look at Federal sources or documents that 
are engaging in promoting women's health, you don't find any 
mention, let alone promotion, of abortion or abortion funding. 
The Centers for Disease Control doesn't even keep regular or 
required records on this. The Federal Government seems 
decidedly uncurious about abortion and women's health. After 
Surgeon General Koop in 1989 said studies on the relationship 
between these were insufficient and recommended long-term 
studies, the government never did them.
    I vividly recall my membership on the NIH council that 
addresses women's health and asked for one question about 
abortion and women's health to be put on studies and it never 
was. Despite the fact that increasingly, European studies, 
including meta analyses involving 900,000 women, are showing a 
relationship between abortion and mental health outcomes that 
are problems for women. In addition to the Federal Government's 
having no firm ideas about the numbers for abortions or its 
impact on women, or a lack of curiosity about it, if you look 
at all the major Federal reports on women's health issued from 
HHS, from NIH, from the White House, and they are all detailed 
in my testimony, what do you see in these? When the government 
is actually dispensing women's health advice? No mention of 
abortion or abortion funding. Rather, frank acknowledgment that 
a woman is carrying, in their words, unborn babies. You see 
them addressing what the CDC identifies as the serious threats 
to women's health, heart disease, stroke, cancer; not abortion. 
You see them recommending that women avoid substances during 
pregnancy that could ``damage your baby.''
    In conclusion, the Federal Government has collected no 
useful data about the relationship between abortion and women's 
health. When it does offer advice, it recommends health care 
for women and her ``unborn baby.'' Credible studies are 
indicating distress for women following abortion.
    By themselves, these facts indicate how H.R. 7 serves 
women. But there's another service H.R. 7 might perform. 
Regular squabbles over Federal funding for abortion too often 
take the place of debates about what women actually need and 
say they want. Debates about paid leave or Social Security 
benefits for women's care work. Instead of debating ideas about 
how to end poor women's cycle of poverty or non-marital 
childbearing, we continue to debate abortion in this country. 
It's time, once and for all, to settle the matter of abortion 
funding across Federal legislation and move on to a real 
women's agenda. Thank you.
    Mr. Franks. Thank you, Ms. Alvare.
    [The prepared statement of Ms. Alvare follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Franks. And I now recognize our second witness, Ms. 
Wood.

TESTIMONY OF SUSAN FRANKLIN WOOD, ASSOCIATE PROFESSOR OF HEALTH 
POLICY, DIRECTOR, JACOBS INSTITUTE OF WOMEN'S HEALTH, SCHOOL OF 
PUBLIC HEALTH AND HEALTH SERVICES, GEORGE WASHINGTON UNIVERSITY

    Ms. Wood. Thank you, Mr. Chairman. And gentlemen of the 
Committee. I want to thank you for being able to present 
remarks on the bill before us today, H.R. 7. I need to point 
out that this sweeping legislation would affect nearly all 
women in this country and would do significant harm to many, 
especially those women and families who are struggling to make 
ends meet. While the bill is cloaked in the language of 
taxpayer rights and Federal appropriations, a close examination 
of its true impact reveals an attempt to interfere with a 
women's personal decision making by denying women insurance 
coverage for abortion care. And every woman deserves coverage 
for basic health care, including contraception, maternity care, 
and abortion coverage, should she need it.
    This legislation reaches far beyond the already troublesome 
Hyde Amendment, beyond the onerous restrictions that were 
proposed in the Stupak Amendment, in the Affordable Care Act, 
and beyond the restrictions that actually were enacted into the 
ACA by the Nelson Amendment. It would virtually eliminate 
abortion coverage from the private insurance market and impose 
unprecedented new tax burdens on business that want to offer 
abortion coverage to their employees.
    Moreover, it would provide exceptions only for rape and 
incest, or for conditions that put a woman in danger of death. 
Congress should reject this harmful and overreaching piece of 
legislation.
    Now, those who oppose abortion have tried and failed to 
make it illegal. So instead they have worked to make it almost 
impossible to obtain. Indeed some object to even insurance 
company of contraception, which is the most effective way to 
prevent unplanned pregnancy and reduce the need for access to 
abortion care. This bill is the most recent attempt. And it is 
not enough that they have tried to deny abortion coverage to 
the women who qualify for Medicaid. It is not enough that this 
denies coverage to veterans, Federal employees, Native American 
women, disabled women, and women who participate in other 
Federal insurance plans and programs.
    No, to cut off access to affordable abortion care for the 
rest of the women in the country, we need this bill as the 
final piece of the puzzle. If Congress enacts this bill, you 
are taking away coverage from women who live in places where 
private insurance plans that include abortion coverage are sold 
today. And you would take away a woman's ability to use her own 
health savings account to cover her medical costs related to 
abortion care, an unprecedented insertion of abortion politics 
into tax policy.
    Historically, the vast majority of insurance plans have 
typically covered abortion services. It's no coincidence, it's 
where health policy--good health policy meets good financial 
policy and meets a woman's health care needs. In our analysis 
of both the Stupak and Nelson Amendments, which I would like to 
enter into the record, we raise the concern that Congress would 
create a chilling effect which would lead many more women to 
lose abortion coverage. Further changing the tax benefits for 
employees and for employers providing health coverage as 
proposed in H.R. 7 could create a tipping point in the nature 
of insurance whereby women lose abortion coverage because 
insurers may no longer provide plans that include it.
    Since approximately 60 percent of women of reproductive 
age, 37 million women, get their health care coverage through 
private insurance, this legislation could have a far-reaching 
effect. It represents more than just meddling in their personal 
decisions, by making it unaffordable, it effectively bans 
abortion for some women. And while it may not seem like a big 
expense to a Member of Congress, in these tough financial times 
for many people, abortion care costs more than their monthly 
rent, putting it out of reach for their family's pocketbook.
    Moreover, cutting off access to abortion has profoundly 
harmful effects on the public health. Based on the experience 
with the ban that has long been imposed on women who qualify 
for Medicaid, we know that some who seek an abortion are forced 
to carry a pregnancy to term, due to lack of coverage and cost. 
And we also know that births that result from unintended or 
closely spaced pregnancies are associated with delayed prenatal 
care, premature birth, low birth weight, and other negative 
health effects on the children. We know that a woman who wants 
to get an abortion but is denied it is less likely to have a 
full-time job and twice as likely to be a victim of domestic 
violence. Denying abortion care to these women who are least 
able to afford out-of-pocket medical expenses will further 
exacerbate existing health disparities.
    And although most of the women affected by these bans will 
still find a way to end their pregnancies. Many are forced to 
delay their procedures for 2 or 3 weeks or longer while they 
pull together enough money to pay for the care they need. By 
banning abortion coverage for even more women through private 
insurance, as this bill would do, Congress would expand the 
number of women and families struggling with budget dilemmas, 
including many middle-class families still recovering from the 
great recession. And even with the primary assistant provided 
by the Affordable Care Act, families have to stretch their 
budgets to pay for health insurance, and women are more likely 
to fall into poverty if they are not able to get the abortion 
they need.
    Importantly, the H.R. 7 also extends very narrow exceptions 
for abortion coverage now allowed for Medicaid. If private 
plans decided to continue to provide such coverage, both they 
and the IRS would need to evaluate coverage decisions to ensure 
that they were in compliance. Neither the private market nor 
the IRS is suited for such determinations about a woman's risk 
of death or determination of rape or incest. Women potentially 
could be required to provide evidence of rape or incest to the 
insurer or to the IRS as part of a claim.
    Furthermore, health conditions, such as diabetes, 
hypertension, epilepsy, or others would not necessarily fit the 
definition of placing a woman in danger of death, but could 
have potentially serious consequences for her health. Health 
insurance now routinely covers the range of pregnancy and other 
health services that may be needed by the individual woman. But 
by denying abortion coverage, it would not only change the 
current insurance women have, but would put some women's health 
at risk.
    In conclusion, this bill would impose a sweeping and 
unprecedented ban on abortion coverage with far-reaching and 
harmful consequences for women's health and for their economic 
security. When it comes to the most important decision in life, 
such as whether to become a parent, it is vital that a woman be 
able to consider all of her options, no matter what her income 
or source of insurance. It makes sense that health insurance 
covers the whole spectrum of women's health needs, including 
birth control, abortion, maternity care. Because when people 
can plan if and when to have children, it's good for them, it's 
good for their families, and it's good for society as a whole. 
Thank you.
    [The prepared statement of Ms. Wood follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Franks. Now recognize our third and final witness, Mr. 
Doerflinger. Please turn on your microphone, sir.

   TESTIMONY OF RICHARD M. DOERFLINGER, ASSOCIATE DIRECTOR, 
SECRETARIAT OF PRO-LIFE ACTIVITIES, UNITED STATES CONFERENCE OF 
                        CATHOLIC BISHOPS

    Mr. Doerflinger. Thank you, Mr. Chairman, for this 
opportunity to voice the support of the U.S. Conference of 
Catholic Bishops, for H.R. 7, the ``No Taxpayer Funding for 
Abortion Act.'' This bill will write into permanent law a 
policy on which there's been strong popular and Congressional 
agreement for over 35 years: the Federal Government should not 
use its funding power to support or promote abortion. This 
principle has been embodied in the Hyde Amendment, and numerous 
other provisions governing a wide range of domestic and foreign 
programs. It has consistently had the support of the American 
people. Women oppose federally funded or federally mandated 
abortion coverage as strongly as men or more so. Low-income 
Americans oppose it more strongly than the affluent.
    And even courts insisting on a constitutional right to 
abortion have said this alleged right ``implies no limitation 
on the authority of a State to make a value judgment favoring 
childbirth over abortion, and to implement that judgment by the 
allocation of public funds.'' In 1980, the U.S. Supreme Court 
said the Hyde Amendment is an exercise of ``the legitimate 
congressional interest in protecting potential life,'' adding: 
``Abortion is inherently different from other medical 
procedures because no other procedure involves the purposeful 
termination of a potential life.''
    In other words, the Federal Government is perfectly within 
its moral and legal rights, to say that abortion is not basic 
health care. The only mistake in the quote from the Supreme 
Court is its use of the phrase ``potential life.'' That has no 
clear biological or medical meaning. In fact, unborn children 
are actually alive until they are made actually dead by 
abortion. More recently, the Supreme Court has said simply that 
the government may express ``profound respect for the life of 
the unborn'' by regulating abortion.
    So the Supreme Court and the actions of Congress simply 
contradict Dr. Wood's testimony. She's talking about the 
government ``meddling,'' ``interfering,'' ``denying,'' ``making 
women lose'' coverage--setting aside the fact that the vast 
majority of women don't want abortion in their coverage, so 
saying you are losing the coverage is like saying you're losing 
a tumor--``banning'' abortion, ``forcing.'' This is simply a 
governmental decision to put its support behind the life-
affirming options for mother and child and not to subsidize the 
lethal option.
    Congress's policy has been consistent for decades, but its 
implementation in practice has been piecemeal, confusing, and 
sometimes inadequate. Gaps or loopholes have been discovered in 
its patchwork of provisions over the years, highlighting the 
need for a permanent and consistent policy across the Federal 
Government.
    In 2010, Congress passed major health care reform 
legislation, which, as has been mentioned, puts Federal funds 
into an entirely new part, a much larger part of the health 
care system for the first time. And that legislation has, as my 
longer statement details, at least four different policies on 
abortion funding, ranging from a ban on such funding in one 
section, on school-based clinics, to a potential mandate for 
such funding in another. These problems have arisen partly 
because various sections of the Affordable Care Act not only 
authorize but appropriate their own funds, thus bypassing the 
Hyde amendment and similar longstanding appropriations 
provisions.
    Recent developments underscore a need to correct the 
abortion funding problems in the Affordable Care Act. In 2010, 
the Act was used to approve direct Federal funding of elective 
abortion coverage in the State high risk pool program until 
that was uncovered by pro-life groups.
    As State health exchanges have begun to operate, Americans 
are finding it difficult to find plans without abortion 
coverage or even to get clear answers as to which plans those 
are. And they are discovering that despite public assurances to 
the contrary, they may, in fact, be forced by the government to 
subsidize other people's abortions as a condition for obtaining 
the health care their families need.
    Congressional employees and Members of Congress are finding 
that if they want a plan without abortion in D.C., they only 
have a choice of nine out of 120--more than 120 plans. Members 
and staff of Congress, previously assured they are free to 
choose from a full range of plans without abortion, are being 
deprived of that freedom or having it greatly narrowed--
contrary, in our view, to longstanding Federal law. We have 
submitted comments to the Federal Government on that point.
    If a bill like H.R. 7 had been enacted before the health 
care reform debate began, that debate would not have been about 
abortion funding. A major obstacle to support by Catholics and 
other pro-life Americans would have been removed, and the 
legislation would not have been so badly compromised by 
provisions that place unborn human lives at great risk.
    H.R. 7 would prevent problems and confusions on abortion 
funding in future legislation. Federal health bills--and I 
think a lot of us would be relieved at this--could be debated 
in terms of their ability to promote the goal of universal 
health care, real health care, instead of being mired in 
debates about one lethal procedure that most Americans know is 
not truly health care at all.
    Finally, in our view, and we'd be happy to discuss this, 
H.R. 7 does not eliminate private coverage for abortion, but 
specifically allows it when purchased without Federal subsidy. 
And it does not create an unprecedented policy of denying tax 
benefits to abortion. The Affordable Care Act already broke 
that precedent by creating a system of tax credit subsidies for 
coverage, which the Act itself referred to as Federal funding. 
My prepared text provides additional details, and I'd be happy 
to answer questions. Thank you.
    [The prepared statement of Mr. Doerflinger follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Franks. We will now go into the time for questions. And 
I would thank each of the witnesses for their testimony. And we 
will proceed under the 5-minute rule. And I will begin 
recognizing myself for 5 minutes.
    Ms. Alvare, I would note that Mr. Doerflinger quoted Harris 
versus McRae in the court. And the court said, ``No other 
procedure involves the purposeful termination of a potential 
life.'' And affirmed that Roe versus Wade had created a 
limitation on government, not a government entitlement. Three 
years earlier, the Supreme Court had ruled that the 
government's refusal to fund abortion placed no restriction on 
the ``right to choose abortion.''
    Your testimony was especially compelling when you mentioned 
about women's attitudes toward abortion in the coming days. And 
my friends on the left, oftentimes when they are faced with an 
indefensible position try to change the issue to something else 
entirely. And it is very difficult then to debate the issue in 
any effective way.
    Can you tell me how both of those stated concerns coincide 
with H.R. 7, in your opinion?
    Ms. Alvare. If I could clarify, the stated concerns 
regarding what is said in Harris versus McRae?
    Mr. Franks. The court's decision and also women's attitudes 
toward abortion.
    Ms. Alvare. Yes. I mean, the court's decision is very 
clear. It's established as a matter of law. But I think it also 
seems as a matter of common sense to many people in the United 
States that refusing to fund something is not a statement that 
the government has done away with what is still in this country 
a constitutional right, and the court just drew that line very 
clearly. It's mystifying to me sometimes when people make this 
argument; from the common sense perspective, it seems as if 
they're saying that somehow 1.2 million abortions a year isn't 
enough. That in order really for us to say we have some robust 
right of abortion, we have to have an even higher rate than 
3,300 abortions a day. We already know that poor women are 
getting a disproportionate number of these, and that they 
disfavor abortion more than the well off. Right? We also have 
minority and immigrant women disfavoring it more than majority 
American women.
    And so the idea that it is an interference is problematic. 
The other statement that comes to mind in connection with this 
is, you know, if you look at Planned Parenthood, the largest 
abortion provider's most recent balance sheet, I mean, in 
addition to the giant amount of government funds they have, 
they have $500 million a year of nongovernmental funding. If 
it's so important to them that there be more abortions among 
the poorest women in the United States, I would wonder why they 
don't follow the example of the over 3,000 crisis pregnancy 
centers who are contributing private funding to women, about 
$25,000 per woman per year in the residential facilities, and 
there are over 350 of those. So that entire argument that 
somehow a right has to equal funding it and the funding has to 
come from the government, it is neither legally supported, nor 
is it supported in common sense, nor would poor women in 
particular support that.
    Mr. Franks. Yes, ma'am.
    Thank you very much.
    Mr. Doerflinger, I know some States have made their own 
decision on what to do about abortion coverage on their 
exchanges. Can you give us an update on what has happened in 
that regard?
    Mr. Doerflinger. Yes, Mr. Chairman. Since the Affordable 
Care Act passed, 24 States have acted to opt out of the 
abortion policy on the State exchanges set out by the Federal 
Government, the presumptive policy in which Federal funds are 
used to subsidize plans that cover elective abortions. Then 
there's a little bit of separate bookkeeping, separate 
accounting for the funds used for abortion. But everybody in 
those plans is forced to pay that surcharge for abortion. 
States have looked at that policy and said, no, we're going to 
take elective abortions off the exchange altogether in our 
State. And that policy goes farther than H.R. 7, which only 
removes elective abortion from plans receiving the Federal 
subsidies.
    Now, of the 13 Members of this Subcommittee, 10 of you are 
from States that have made that decision to simply take 
abortion off the exchanges, and four of the five Democrats on 
this Subcommittee, are from States that have made that 
decision. You passed the bill with this abortion policy, and 
your own States have said no. That's the trend now. In fact, 
more States than ever have taken this opportunity to actually 
reach out and say that abortion will not be available in 
private plans off the exchanges--except, in most cases by 
supplemental riders. Ten States have done that.
    So the trend out there in the country is that about half 
the States now have said, no, we want a firmer policy against 
abortion on these State exchanges.
    Mr. Franks. I thank the gentleman. And I will now recognize 
Mr. Nadler for his 5 minutes of questioning.
    Mr. Nadler. Thank you. Professor Wood, the Affordable Care 
Act requires participating insurance plans to segregate monies 
for abortion services from all other funds, a measure my anti-
choice colleagues insist was necessary to prevent Federal 
funding of abortion. To aid in identifying these funds, both in 
terms of premiums being paid for coverage and costs for 
services provided, the law requires companies to estimate the 
cost of abortion coverage at no less than $1 a month. Some have 
characterized this segregation of funds as an abortion 
surcharge. Is this an accurate description?
    Ms. Wood. The short answer to that question is no. As you 
have correctly stated, this is a general premium to provide for 
all health care services. And because of the Nelson Amendment 
to--it both avoids use of Federal funds primarily to avoid the 
use of Federal funds, the segregation of the private dollar 
contribution of at least $1 a month is to be set aside to pay 
directly for those services. And indeed, there are accounting 
responsibilities of the insurers to make sure that they can 
demonstrate to their State insurance commissioners that they 
have indeed complied with the statute.
    So I think in this case, it's clearly not a surcharge. It's 
a segregation of the premium. And women who or family plans who 
choose not to have a plan that does not provide abortion 
coverage, the option to purchase that is available to them.
    Mr. Nadler. You mean that plans that choose not to have a 
plan that covers abortion, don't you?
    Ms. Wood. I'm saying aside from the plans that cover 
abortion, there will be plans available to choose if that is 
such an important issue.
    Mr. Nadler. So it would be inaccurate to claim that an 
individual that objects to abortion will be forced to 
participate in or pay for a plan that covers abortion, or as 
Mr. Doerflinger put it, to subsidize someone else's abortion?
    Ms. Wood. That is correct.
    Mr. Nadler. And that would be inaccurate because?
    Ms. Wood. That is because plans in the statute, it does 
call--though there is no requirement to cover abortion, sort of 
in a balancing way, there is a requirement that there be plans 
available that do not cover abortion that an individual can 
choose. And, indeed, that information about coverage of 
abortion must be made available through the summary of benefits 
that would be provided upon purchase.
    Mr. Nadler. Okay. So now tell me, how common is it now for 
insurance plans to cover abortion services now, and how would 
that change if H.R. 7 is enacted?
    Ms. Wood. I think this is the crux of the matter. Since the 
beginning when people have been measuring this, abortion has 
been covered. And I think it is important----
    Mr. Nadler. Has been covered by private insurance.
    Ms. Wood. Has been covered by private insurance. 
Absolutely. And because it has sort of been--and it has not 
been called out or controversial. It has been part of the 
general medical and surgical benefits that are covered as 
needed by any individual. And it is important to remember that 
insurance is set up just as that. It is for those anticipated 
and unanticipated things that can happen in your life. We will 
all need health care at some point. We may not know what it is. 
Maternity care hopefully is planned anticipated coverage.
    Mr. Nadler. So that has always been included. How would 
that change if H.R. 7 is enacted?
    Ms. Wood. Okay, sorry. Yes, it would change dramatically, I 
think, and this is the analysis we did just in looking at the 
Stupak amendment, but we think it applies also even more so to 
H.R. 7, which is it will create a change in the insurance 
market because if insurers have to tease out not an entire 
class of benefit, but specific procedures under specific 
circumstances, they will likely, over time, begin to decide 
that this is not worth the effort, it is not worth the----
    Mr. Nadler. So in other words, this bill would have the 
effect of getting private insurance companies that now offer 
coverage to not do so?
    Ms. Wood. We project that eventually would change, and we 
have used the word tipping point. That historically plans have 
covered abortion under medical health insurance, and now it 
will tip to the norm being non-coverage.
    Mr. Nadler. And I would assume that that is really the 
point of the bill.
    Ms. Wood. Right. And the concern would be regulations that 
might be issued by the IRS, having to document, et cetera.
    Mr. Nadler. So last year we had concerns given the 
unprecedented tax provisions in the bill that this could 
require some pretty invasive regulatory enforcement procedures 
for women who are pregnant as a result of rape or incest and 
for women whose lives are endangered if they continue 
pregnancy. Is this a concern?
    Ms. Wood. Absolutely. Having to make that determination is 
not something that either the IRS, insurance companies or 
Congress should really be involved in.
    Mr. Nadler. And setting aside the privacy concerns, how 
might uncertainty over how an expense might be treated by the 
IRS impact women and how might it impact insurers?
    Ms. Wood. Well, I think impacting women, to have to 
document a rape or a condition of incest is traumatic at the 
minimum. I think in terms of insurers, they do not want to be 
in the place of having to make a determination of which is an 
acceptable exception to the ban on coverage, or whether it 
needs to be covered by either the woman herself or by this 
potential rider that would then need to be coordinated with the 
base plan.
    This raises a lot of regulatory and oversight and 
implementation concerns that insurers have traditionally never 
been involved in and would--in their traditional way would be 
to just cut out that entire set of coverage entirely and not 
want to go into making those determination, leaving all 
abortions uncovered.
    Mr. Nadler. My time has expired. I thank you.
    Mr. Franks. We will now recognize the gentleman from Ohio, 
Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. Mr. Doerflinger, let 
me begin with you, if I can. Can you explain the stance that 
the Catholic Bishops Conference took on the Affordable Care Act 
and why that organization ended up opposing final passage of 
the bill?
    Mr. Doerflinger. Yes, sir. The bishops have been in favor 
of government involvement in ensuring people's access to health 
coverage since 1919, when they made a statement after World War 
I about social reconstruction. We were very much in favor of 
pursuing health care reform, and we put out a great many 
materials saying basically that we hope Congress will address 
this problem, we want to move to universal health coverage, but 
there are moral principles that that should respect.
    The coverage should be affordable and fair, it should 
extend to everyone-- and in that respect, the final bill, in 
our view, and I know I will disagree with some of the majority 
Members of this Committee on this, we felt it should fully 
cover immigrants, regardless of their legal status. We felt it 
should respect the existing longstanding policies in all of 
these other programs, that Federal funds do not get used for 
abortion or any part of a health plan that covers abortion. 
That is current law now in the Hyde Amendment, in Federal 
Employees Health Insurance, in the SCHIP program. And, thirdly, 
we felt that it should have strong protections for rights of 
conscience, which of course, it does not, as witness two cases 
that are going up to the Supreme Court now.
    So in the end, we were very encouraged by the House bill. 
The Stupak amendment was approved with the support of 64 
Democrats, including House Appropriations Committee Chair David 
Obey. We had a bipartisan agreement that we are going to set 
this abortion issue aside and talk about health care. And then 
the Senate changed it back.
    I don't know why we are talking about a Nelson amendment. I 
think Mr. Nelson convinced Harry Reid to put in some additional 
accounting procedures, but what is in the bill now is basically 
the Lois Capps amendment that was prepared by----
    Mr. Chabot. Let me stop you there, if I can, just because 
we have got limited time. Despite claims from the 
Administration that the Affordable Care Act abides by the 
principles of the Hyde amendment, we know that health care, 
Federal tax subsidies are paying for health care plans, or 
will, including elective abortions.
    Is it your belief that additional tax subsidies like this 
to individuals to pay for health care plans which could have 
elective abortions will, in all likelihood, increase the number 
of abortions performed in this country?
    Mr. Doerflinger. Of course. You know, Dr. Wood said that 
most plans have abortion, and that is true, but that is not 
because people want it. Sixty-eight percent of women, in the 
last poll we did on this, are against having abortion in their 
coverage. And so those decisions are being made largely by the 
for-profit insurance companies because abortion is cheaper than 
a live baby. Wow. Imagine that. Live babies are more expensive 
than dead ones. So the insurance companies have an economic 
incentive to promote abortion coverage and they include it.
    Mr. Chabot. Let me cut you off there if I can at this time.
    Mr. Doerflinger. But what this bill says is we are not 
going to put Federal funds into encouraging that bias.
    Mr. Chabot. Thank you. Ms. Wood, let me turn to you real 
quickly. Why did President Obama issue his executive order 
which purported to curb abortion funding or stop funding?
    Ms. Wood. I think it is clear that the Affordable Care Act 
already through the Nelson amendment ensures that no Federal 
dollars are going toward abortion. And that certainly is a 
conversation we can have about, you know, my opinion that those 
bans are not appropriate, but that that is, in fact, what is in 
the Affordable Care Act. And his memo merely confirmed what was 
already in the statute.
    Mr. Chabot. Thank you. Ms. Alvare, let me turn to you if I 
can here. You had stated in your testimony that, and I am 
putting this in my words, you said that women really don't 
support abortion overall, even though we sort of think 
politicians think that, the press kind of says women are for it 
and men are against it, you know. Would you clarify that a 
little bit?
    Ms. Alvare. Yes. The best study I have seen on this with 
really great cross-tabs, very detailed on women at every income 
level, women of different racial and educational background, 
was the RAND Corporation in cooperation, I think it was with 
the Packard Foundation, Rockefeller Foundation. You know, these 
are groups that are supportive of population control policies 
generally, including often abortion.
    But what you see, and you see this in not only the 
quantitative but also the qualitative studies of poor women, 
the best book ever on this, Promises I Can Keep, Why Poor Women 
Put Motherhood Before Marriage, that there is this disapproval 
particularly among poor women, of abortion, just a moral 
disapproval of it and a desire that it not be normalized or 
encouraged. If you look at the ratio of unintended or out-of-
wedlock births among the poor, they abort a lower ratio of 
those than do people who are better off.
    So not only is it that women are not supportive of this. I 
mean, this is a top-down sort of groups claiming to represent 
women sort of proposal. It is a political thing, it is not a 
health care thing, and it certainly does not speak for 
grassroots women, particularly poor women in America.
    Mr. Chabot. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Franks. I thank the gentleman. I now recognize Mr. 
Cohen for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    Ms. Alvare, let me ask you a question. Do you believe this 
bill, H.R. 7, would include birth control in making it illegal?
    Ms. Alvare. No. My understanding is that it addresses 
abortion.
    Mr. Cohen. Only abortion. Okay. Let me ask you this too. 
Does this bill ban a State like Arizona from spending its local 
funds on abortion?
    Ms. Alvare. It is my understanding that if a State wants to 
spend its own money on abortion, that a State can do that. 
States already do that.
    Mr. Cohen. So it doesn't ban a State like Arizona from 
doing that, or Arizona hospitals from performing abortions. It 
doesn't ban that either?
    Ms. Alvare. The question in this bill is taking Federal 
funds out of it. If you are really--you have to be speaking, 
and I am sure a particular hospital, a particular locale would 
be able to give you, sort of an Arizona expert would be able to 
give you statements about whether their hospitals, their 
locales, et cetera, how or how much or in what way they 
interact with Federal funding. But, again, the purpose of this 
is to draw the lines between Federal funding for abortion----
    Mr. Cohen. How about D.C.? Would it affect D.C. hospitals 
and D.C. from spending its local funds on abortion?
    Ms. Alvare. It is my understanding because of the 
definition of D.C. for the purposes of this bill and obviously 
in connection with a longstanding relationship between the 
Federal Government and D.C., that, yes, it would prevent D.C. 
from spending money that it wished to spend, which is a good 
thing.
    Mr. Cohen. I know you were not a Member of Congress and you 
weren't here during the Republican shutdown, but during that 
shutdown, the Republicans almost were unanimous in favor of 
letting D.C. spend its local funds, even during the shutdown. 
So there seemed to be kind of a bright chink in the armor of 
D.C. being a Federal----
    Ms. Alvare. I am not actually political on these question. 
I try to take a principled or a legal or empirical view. I am 
not about recognizing the political----
    Mr. Cohen. Let me ask you a question. You mentioned a lot 
of polls about lower income people and pro-life----
    Ms. Alvare. I am sorry, I couldn't hear you, sir.
    Mr. Cohen. You mentioned a lot of polls about low income 
people and their positions on pro-life.
    Ms. Alvare. On abortion and abortion funding.
    Mr. Cohen. And that most low income people you said, poor 
people, were pro-life. And you talked about pro-life and the 
Federal Government, and because it was death and it was 
gruesome and it was ugly and all those things. Most polls, and 
there are more polls that I can name, show that most pro-life 
people, women, are also in favor of the death penalty. How do 
you reconcile that, because that type of death is gruesome?
    Ms. Alvare. Two things. Number one, I could not personally 
or principally reconcile it myself and that is why I have been 
publicly on record against any Federal support for killing, 
whether it is the death penalty or abortion.
    Mr. Cohen. How about war? How are you on war?
    Ms. Alvare. Number two, I guess I haven't written anything 
on it outright. Because of my background, which is an overlap 
of both philosophy, theology and law in the area, I am--I guess 
you would say my general position would be, in case this 
matters to you or would help shape your opinion on the bill, I 
am not sure how it relates to anyone else's opinion around 
here, I am in favor of life. And in my knowledge of the church, 
its just war theory in particular, which I think is a very good 
outline of the theory, would probably be an explanation of my 
position, if that is influential to you. I hope it would be.
    Mr. Cohen. Right. Just for time limits. Mr., is it----
    Mr. Doerflinger. Doerflinger.
    Mr. Cohen. Doerflinger. You work for the church, is that 
correct, for the bishops?
    Mr. Doerflinger. That is correct.
    Mr. Cohen. And Ms. Alvare is a consultant. Now, the Pope 
has been real good on saying that these issues concerning gays 
and abortion are part of the Catholic history, but that they 
should be kind of lessened in terms of the real big issues, 
which is the great disparity in wealth between the wealthy and 
the poor, and we need to do more things about taking care.
    I wonder what you or either of you all are doing to try to 
influence my colleagues to do things about unemployment 
insurance, to do things about food stamps support and Meals on 
Wheels and things like that, and maybe tax policy that kind of 
levels the playing field out so you can do the Pope's work here 
in the United States Congress? I am a big fan of the Pope's new 
positions. I am just wondering what you were doing to move 
those forward.
    Mr. Doerflinger. I have to begin by differing with you on 
the interpretation of what Pope Francis has said, because what 
he has said is that all of these issues are important, but it 
is better to put them in a deeper context as a consistent 
message about the dignity of all human beings than to treat 
them as individual political positions. What he said about 
abortion is that----
    Mr. Cohen. Let me ask first, what did he say about the 
disparity in wealth?
    Mr. Doerflinger. He said there is a huge problem in the 
disparity of wealth. And I would say this. Yesterday was the 
50th anniversary of President Johnson's announcement of the War 
on Poverty. That is an issue that is very close to the bishops' 
hearts. The bishops just yesterday sent up a letter encouraging 
Congress to increase the minimum wage. We are celebrating 
Poverty Awareness Month--January is Poverty Awareness Month--by 
educating Catholics about the need to fight poverty. Our 
Catholic Charities, our Campaign for Human Development, our 
Catholic Relief Services are out there providing help to 
millions of people in poverty, and I think doing--no offense 
intended--doing so more effectively than many government 
programs do.
    We are very much in favor of the War on Poverty. But we 
also insist, and so does Pope Francis, that the War on Poverty 
must never become a war on the children of the poor. Pope 
Francis has said it is not progressive to try to solve our 
problems by eliminating a human life.
    Mr. Franks. The gentleman's time has expired.
    Mr. Chabot. Mr. Chairman, I would ask unanimous consent 
that the gentleman be granted an additional 30 seconds and I 
would ask the gentleman to yield to me if he would.
    Mr. Franks. Without objection.
    Mr. Cohen. I don't have a problem. I yield.
    Mr. Chabot. I thank the gentleman for yielding. My only 
point was he was just about to say on abortion the Pope said, 
and then you cut him off and we never heard, and I would be 
interested to hear what the Pope said on abortion.
    Mr. Doerflinger. Oh, I am sorry. Just that this dignity of 
life, even from the very beginning, is so intimately linked 
with all our other human rights, that if you take a wrong turn 
on that, it undermines the basis of all the other rights we are 
trying to fight for. That has been said by Pope John Paul II 
and Pope Benedict and it has been said by Pope Francis as well. 
He said the church is not going to change its position on this. 
If it changes its position on this, its whole moral logic about 
the dignity and rights of every human being falls down.
    Mr. Chabot. I thank the gentleman for yielding.
    Mr. Franks. I would now recognize the gentleman from Ohio--
I am sorry, the gentleman from Iowa, I am getting the folks 
mixed up here, Mr. King. I am sorry, we have got the list here. 
I recognize the gentleman from Virginia, Mr. Forbes, for 5 
minutes.
    Mr. Forbes. Thank you, Mr. Chairman. I want to thank all of 
our witnesses for being here. I know you are all incredibly 
good people, smart people, passionate about your issues. These 
are complex issues. Sometimes in these hearings, we do truly 
the forest for the trees when we get off on poverty, war, 
peace, death penalty, those kinds of things, and we have to 
keep trying to bring it back to something we can get our hands 
around.
    Ms. Wood, I would just like to ask you a question if I 
could to try to get at that core. I had someone the other day 
that is a friend of mine and they showed me a small video of 
this new baby they were going to have that is going to be their 
grandchild. And it was only a few weeks old and they were just 
amazed at what they could see.
    What do you call that? And I want to use the nomenclature 
you want so that I am not offensive to you. But before that 
entity is born, which I would call an unborn baby, but what 
would be the vernacular that I should use that would be 
appropriate?
    Ms. Wood. Depending on the stage, it would be an embryo or 
a fetus.
    Mr. Forbes. Okay. In that embryo, and I will use that 
terminology because it is the one that you pick, or we could 
use fetus, either one, is there no procedure, no action that 
could be taken against that embryo, no harm committed, no 
matter how horrendous it might be, that you would feel should 
be prohibited?
    Ms. Wood. I think the key perspective we have to take here, 
and this is, again, one of the unknowables, is what is the 
circumstance of the individual woman that is trying to decide 
whether to become a parent, what is her circumstances, what is 
her health needs. And therefore, I think there is real--taking 
it from that thinking where I don't stand in her shoes and none 
of us can really know what is going on in any particular----
    Mr. Forbes. And I appreciate that. I am sorry, I think my 
volume----
    Ms. Wood. And those decisions are made based on her health 
needs and that of her physician----
    Mr. Forbes. And I fully understand that. I am not arguing 
with you. I am just saying it would be your position, as I 
understand it, that there would be no procedure, no action 
taken, no harm committed to that embryo by your definition, 
that would be so egregious or so bad that we would prohibit it 
so long as that mother or that woman said it was okay to do it. 
Is that a fair interpretation?
    Ms. Wood. I don't think it is a really relevant--I mean, I 
don't fully grasp the question, because I think it is important 
to say that there are--things need to be done with good medical 
care in the context of high quality medical care.
    Mr. Forbes. But that is not where we are. Where we are at 
is trying to, one, get the baseline and then determine the 
continuum and then determine what Federal dollars can be spent 
on it. But as I understand your position, there is no 
procedure, there is nothing that we could do to that embryo, in 
your vernacular, as long as that mother or that lady said it 
was okay, there is nothing we could do that you would feel 
would be a bridge too far that should be prohibited?
    Ms. Wood. I think I would still say that it would be 
something within the determination of the woman and her health 
professional, and if they came up to some--and I am not a 
medical professional. I don't want to say what medical 
procedures are correct or incorrect.
    Mr. Forbes. I understand. But I am just saying that as I 
understand you, there is no procedure, nothing, that would----
    Ms. Wood. I think you are misconstruing my testimony.
    Mr. Forbes. Then please clarify that for me. Tell me what 
procedures you think would be too egregious to that embryo, 
that even if the mother or the wife said it is okay that you 
would think would be too far and shouldn't be allowed?
    Ms. Wood. I think if the woman is getting unsafe abortion 
care, that is egregious. I think there are medical procedures 
which are not acknowledged or shown by evidence to be safe and 
effective. And I think those need to be----
    Mr. Forbes. But nothing as far as that embryo is concerned?
    Ms. Wood. I think you don't separate in this case the 
embryo and the mother. They are--the woman is in the 
circumstance with her health care provider to make those 
determinations.
    Mr. Forbes. Mr. Chairman, since my time is running out, I 
would simply allow Mrs. Wood, if she has such procedures, such 
actions that could be taken to the embryo that she thinks 
should be prohibited, even if the mother says it is okay to do 
it, if she would submit those for the record. But at this point 
in time, through all my questioning, I have heard none. And so 
if the record could just state that. And then if she would like 
to supplement that, we would love to give her that opportunity.
    With that, I yield back, Mr. Chairman.
    Mr. Franks. Without objection, we would ask Ms. Wood to 
provide us with that answer.
    I would now recognize Mr. Deutch for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, I am struggling some to figure out why we are 
here today. As the Ranking Member pointed out earlier, Federal 
funds haven't been used for abortion in 30 years. Federal funds 
have not been used for abortion in 30 years. So if the problem 
that we are truly trying to solve is to keep taxpayers from 
footing the bills for abortions, mission accomplished. However 
you feel about it, mission accomplished.
    But keeping taxpayer funds away from abortion isn't why we 
are here. Instead, this Committee, on a regular basis, seems 
intent on picking away at a constitutionally protected right 
with misleading backdoor legislation. Whatever your personal 
feelings about abortion, and whether you would want a woman in 
your family to make that choice or not, we must all recognize 
that that woman has a constitutionally protected choice to make 
about her own body. To create new restrictions on the coverage 
of abortion by private insurance companies in the guise of 
taxpayer protection I think is outrageous, and I have some 
questions for the witnesses that I just would like to probe.
    Mr. Doerflinger, starting with you, I respect entirely your 
belief based on sincere and strongly held religious tenants 
that abortion is wrong, and I have the same respect for my 
colleagues, for so many of my colleagues on this Committee. But 
here is where we disagree. America is a multicultural society. 
We don't all subscribe to same religion. I don't believe that 
one religious view should be imposed on others, and using the 
massive power of the Federal Government to force others to 
share your religious views or penalize those who view 
differently is a dangerous approach. So I just would like to 
explore that with you, some.
    If a majority in Congress had strongly held religious 
belief that blood transfusions were immoral, would it be 
appropriate for that majority to ban blood transfusions?
    Mr. Doerflinger. We are not talking about banning anything, 
sir.
    Mr. Deutch. Would that be appropriate for the majority to 
do that? That is the question I am asking you. We are just 
engaging in some hypothetical situations, Mr. Doerflinger?
    Mr. Doerflinger. No.
    Mr. Deutch. And what about vaccinations? Some have strongly 
held beliefs on the matter of vaccinations. In your view, would 
it similarly be permissible for a majority in this Congress to 
ban vaccinations?
    Mr. Doerflinger. No.
    Mr. Deutch. And for people who hold religious objections to 
alcohol and tobacco, there is insurance, maybe this one gets 
more at this issue that we are talking about today, there are 
insurance plans that provide coverage for smoking cessation and 
treatment of diseases borne out of alcohol and tobacco use. If 
a majority of this Congress felt that there is no reason 
taxpayer dollars should be used to support treating disease 
borne out of alcohol addiction, should we be able to take that 
action akin to what this legislation does with respect to 
abortion?
    Mr. Doerflinger. No, nor should the government force people 
to fund those addictions.
    Mr. Deutch. And let me just go on because I have a few more 
and only limited time. I am sorry.
    Mr. Doerflinger. But this is all irrelevant to the bill at 
hand.
    Mr. Deutch. It is not irrelevant. Ultimately, sir----
    Mr. Doerflinger. You are making a fundamental----
    Mr. Deutch. No, no, let me explain my own position, which I 
thought I had already done but I will do it again. The 
suggestion in this bill, what this legislation does is despite 
the argument that we are protecting people from the Federal 
Government, it says that the massive power of the Federal 
Government can be used to shut down a constitutionally 
protected right.
    Mr. Doerflinger. That is absolutely false.
    Mr. Deutch. That is what this legislation does.
    Mr. Doerflinger. Have you read the bill, sir?
    Mr. Deutch. I had, indeed, read the bill, Mr. Doerflinger.
    Mr. Doerflinger. Section 304 says you are wrong.
    Mr. Deutch. I appreciate your asking. And the other thing 
that is so troubling to me, I have one more question, it is on 
the same topic, just to finish out the list, embryonic stem 
cell research. Now, I know that embryonic stem cell research, 
despite its potential lifesaving revelations, is controversial 
in some parts. Should Congress be able to impose tax penalties 
on people who purchase insurance policies that cover cures that 
were devised from embryonic stem cell research?
    Mr. Doerflinger. There aren't going to be any cures from 
embryonic stem cell research, and this is not about penalizing 
it.
    Mr. Deutch. Mr. Doerflinger, I don't have the time to 
engage in that debate, but I would respectfully suggest to you 
that perhaps as you have encouraged me to take another look at 
the book, that you might well take a look at the research that 
is being done right now in research centers across the country 
before you suggest that there will be no treatments or cures to 
come from embryonic stem cell research, and for all of the 
people, for all the advances which have been made and the 
people whose lives could be improved by it, I would ask you to 
reconsider.
    And, finally, I would just suggest to Professor Alvare that 
she is exactly right, exactly right, when she says that what we 
ought to be doing is focusing on a real women's agenda. I 
agree. And my hope is, Mr. Chairman, that as we go forward in 
this Congress, we might focus on a women's agenda that 
acknowledges that women earn 70 cents on every dollar earned by 
men, and that minimum wage increases is a women's issues 
because two-thirds of minimum wage workers are women, and that 
if we raise the minimum wage, which is 30 lower than what it 
was in 1968, that we will see an immediate reduction in poverty 
among women, and that workers in 145 countries in the world 
have earned paid sick days, and the U.S. has no mandatory paid 
family medical leave policy. We are one of three counties in 
the world and the only industrialized country to not have 
mandated maternity leave.
    This is an agenda for women that this House of 
Representatives ought to take up. I appreciate your making that 
point, Professor Alvare, and I yield back.
    Mr. Franks. I thank the gentleman. And just for the record, 
this bill does not cause the massive power of the Federal 
Government to force people to make any decision. It simply 
prevents the massive power of the Federal Government to force 
taxpayers to pay for the killing of innocent unborn children.
    I would now recognize Mr. King for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses. 
And I would first disagree with Mr. Deutch on the statement 
that the Federal Government hasn't funded abortions for 30 
years, and I would ask Mr. Doerflinger if he could speak to 
that.
    Mr. Doerflinger. Yes, sir. It is for 35 years that the 
Federal Government has been barred from using Federal funds for 
the vast majority of abortions. What has changed, what is new, 
and it is not a new effort by a cabal of mean-spirited 
conspirators as Dr. Wood would like to say, is that Federal 
funds have now moved into a vastly broader arena of the health 
care system. We are no longer talking about Medicaid just for 
the poor, we are talking about tax subsidies for the middle 
class--who, by the way, are presumably far more able than the 
poor to use their own money for abortion if they are not 
getting Federal funds.
    Mr. King. But I would ask you----
    Mr. Doerflinger. Now we are beginning to get into this 
arena----
    Mr. King. I would take you back 30-35 years and speak to 
Medicaid funding of abortions for rape and incest, and funding 
for Planned Parenthood while we are at it.
    Mr. Doerflinger. I am sorry, I didn't understand the 
question.
    Mr. King. Okay. First of all, has the Federal Government 
funded abortion through Medicaid funding in the cases of rape 
and incest over the last 30 years?
    Mr. Doerflinger. Yes, for many years.
    Mr. King. So those would be exceptions to Mr. Deutch's 
statement----
    Mr. Doerflinger. Certainly.
    Mr. King. As the Federal Government, I don't want to say 
``we'' in this case, the Federal Government has consistently 
funded abortion.
    Mr. Doerflinger. Since 1993.
    Mr. King. Under Medicaid funding for the cases of rape and 
incest?
    Mr. Doerflinger. Yes.
    Mr. King. I thank you. And then we look at something like, 
I am pulling this number out of my head, I will say in the 
upper $300-plus million a year that goes into Planned 
Parenthood, is there a way that one could contrive, make the 
argument that none of that funding goes to abortion that funds 
Planned Parenthood?
    Mr. Doerflinger. Well, the Title X family planning program 
says that none of those funds can go to a program where 
abortion is a method of family planning. I don't have evidence 
that those funds are being directed toward abortion. I think 
what Planned Parenthood usually does is have its Title X 
program on family planning done at one clinic and then that 
clinic refers women for abortions to another Planned Parenthood 
clinic that is not a Title X clinic, and it does the abortions. 
So there is some separation.
    But even a Title X program, 1970 it dates from, put the 
funding ban broader than just the procedure of abortion itself: 
We don't want to put Federal funds into a program where these 
are done. So the idea that by just not funding the abortion 
procedure itself and taking that dollar out and switching it 
around, that that respects the history of American law in this 
area, is not true.
    Mr. King. And you wouldn't have to have a Ph.D. in money 
fungibility in order to figure out that $370-some million, some 
of that spills over into funding abortion through Planned 
Parenthood, even if it goes into administrative funds that in a 
broader perspective administer the upper side of that program.
    Mr. Doerflinger. Well, I don't want to get into funding 
Planned Parenthood. I think that is a different issue.
    Mr. King. I am happy to change the subject and I thank you 
for your response.
    Mr. Doerflinger. It is a little relevant. It is relevant to 
this extent, that by giving all this money to Planned 
Parenthood, we are giving money to the organization that does 
hundreds of thousands of abortions a year, more than any other, 
and I, for one, would like to see those funds devoted to 
organizations that are more clearly committed to the needs of 
women as well as their children.
    Mr. King. I agree, and I thank you. And I would turn to Ms. 
Wood and thinking back on your testimony, and part of your 
testimony was the statement to the effect that in the case of 
some women, abortion care costs more than their monthly rent. I 
have trouble calculating that equation. Could you explain that 
statement to the Committee?
    Ms. Wood. Yes. Particularly because of the nature of the 
very narrow exceptions that are allowed under H.R. 7, which is 
life endangerment, rape or incest, those women who have health 
concerns or fetal abnormalities may be facing later term 
abortions which can cost in the thousands of dollars.
    Mr. King. So you answer, then, would be, I think, in 
exceptional cases, it may cost a woman more for a single 
abortion than it does for her 1 month of rent check. Is that an 
accurate way to depict what you said?
    Ms. Wood. That is correct.
    Mr. King. Okay. I wonder how many abortions a month does 
she need at the going rate to keep up with the rent check?
    Ms. Wood. I do know that it pushes women into poverty.
    Mr. King. I accept your answer and I think it is fine. I 
want to, in the seconds I have left, speak to this issue 
because I have an opportunity to speak to it from the 
perspective of the church. And I am a Roman Catholic, I believe 
in good standing with the church and a faithful follower of 
much of the teachings. I was very concerned about the Catholic 
Church's involvement in the ObamaCare legislation as it moved 
through this Congress and the accepting of the Stupak 
amendment.
    Here in the middle of this political arena, I believe that 
the church was operating in a legislative arena that they 
didn't quite understand; that they didn't see that there was 
going to be a bait-and-switch on the Stupak amendment. That is 
what happened. And I think the Church's desire on the principle 
of trying to serve people and trying to get more people covered 
by health insurance, the things that you talked about, Mr. 
Doerflinger, about the dignity of every human person, which I 
believe, I think they got too far ahead of themselves on this 
and failed to understand that abortion was going to be part of 
this package and that Rahm Emanuel was the person that came up 
with the executive order that was going to amend ObamaCare 
after the fact.
    So I wanted to make this point in this hearing that I would 
ask the Church to come talk to some of us on the inside of 
these Chambers when these things come up and understand that we 
should first put the principle, it is the church's principle, 
of life first, and remember there is a principle of 
subsidiarity too. And we can serve people better many times the 
closer to the individuals that we can get those services than 
going broadly with a national policy that turns this over to a 
pro-abortion president.
    My heart is sick at what happened with ObamaCare. The 
conscience protection, the litigation with the conscience 
protection is a result of this desire as is the abortion 
questions before us today. And I think if we would reassert the 
principle of subsidiarity, we would better protect the 
principle of human life.
    Thank you, and I yield back.
    Mr. Franks. I would like to thank all of the individuals 
for their questions----
    Mr. Deutch. Mr. Chairman, I wonder if you could yield just 
10 seconds for Mr. King to clarify that it is his position that 
the Federal Government through Medicaid should not spend any 
dollars on an abortion in the case of rape, incest or to 
protect the life of the mother. Is that correct?
    Mr. King. I didn't state a position.
    Mr. Franks. So I would thank the witnesses for their 
answers. I would thank the Members here for their questions. I 
would suggest that the two most important questions asked today 
here is does abortion take the life of a child, and, if so, 
should taxpayers be forced to pay for it. And with that, 
without objection, all Members--I am sorry, we have been joined 
by Mr. Gohmert. I will now yield to him for 5 minutes.
    Mr. Gohmert. Thank you, and I appreciate the time and I 
appreciate the witnesses' patience. I was at another hearing. 
But I want to make sure that when my colleagues were bringing 
up the Supreme Court mandated authority to abortion, that 
people don't misunderstand. This hearing is not about the 
elimination of abortion, but as the Supreme Court said in Rust 
v. Sullivan, that in upholding Federal limits on abortion 
funding, they said, ``By requiring that the grantee engage in 
abortion-related activity separately from activity receiving 
Federal funding, Congress has, consistent with our teachings,'' 
which I don't appreciate teachings from the court, they are 
supposed to make decisions, not be teaching, especially being 
lectured from people that are so duplicitous at times, but 
separately from this Congress consistent with our teachings, 
``not denied it the right to engage in abortion-related 
activities. Congress has merely refused to fund such activities 
out of the public fisc.''
    And that is what we are talking about. And I hear people 
across America that have been--they have had the wool pulled 
over their eyes and they have been led to believe that some of 
us are moving laws that will end the ability to get an 
abortion, when actually what we are talking about here today is 
the right of religious beliefs, the right of conscience.
    And I know all three of our witnesses, from what I have 
been hearing, has come over the television, you know, you are 
all three very sympathetic to the plight of women, and nobody 
is more so than I am. I have three daughters, and when my first 
one I held in my hands, I could have held her in one but I 
didn't want to risk, she was so premature, I would do anything 
to keep her alive. And it is hard for me to fathom someone 
wanting to kill what I call a child, what some may call an 
embryo, when she is living in my hand at the same time a child 
of the same age is living in someone's womb.
    So I have been married for 35 years. I have three 
daughters. There is no war on women. But when I hear of 
countries around the world, and it seems to be creeping, the 
thought creeping into America, that we could give a woman the 
right to destroy a child in her womb because it happens to be a 
female. It is happening all over the world, China especially, 
babies being killed because they are a female? How long before 
some who support abortion with all of their heart, mind, and 
soul will say, wait a minute, wait a minute; the war on women 
has become a war on women in the womb, and at some point, at 
least please don't make people who see that as killing a child 
pay for others to kill that child. That is what we are talking 
about.
    Legislation, we talk about Supreme Court rights, my friends 
across the aisle about you can't go against Supreme Court 
rights. The Supreme Court has said over and over and over that 
forcing somebody to pay, against their religious beliefs, 
against their heartfelt beliefs, to pay for someone else's 
abortion is where the problem is. So I just think that hasn't 
been made clearly enough from what I had been hearing.
    And with regard to the Stupak amendment, Bart Stupak is my 
friend, I haven't seen him in a long time, but what he didn't 
know is what Mr. Rahm Emanuel said. ``I came up with an idea 
for an executive order to allow the Stupak amendment not to 
exist in law.'' Mary Poppins, a fictional character that I 
never saw until I had kids said that is something easily made 
and easily broken. It is not in law. We are trying to get it in 
the law. And I appreciate all of you being here today. Thank 
you.
    Mr. Franks. Once again, there is always tremendous 
intensities related to this debate, and sometimes people on 
both sides want to suggest that the one side doesn't care about 
the mother or the other side suggests that the one side doesn't 
care about the child. But ultimately it is my belief that 
history and time will point out that abortion on demand has 
been the ultimate war on women and America is better than this.
    With that, it concludes today's hearing. I want to thank 
our witnesses for attending. Without objection, all Members 
will have 5 legislative days to submit additional written 
questions for the witnesses and additional materials for the 
record.
    I thank the witnesses and I thank the Members and the 
audience, and this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

Material submitted by the Honorable Jerrold Nadler, a Representative in 
 Congress from the State of New York, and Ranking Member, Subcommittee 
                 on the Constitution and Civil Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
